No. 19-1181
IN THE

SUPREME COURT OF THE UNITED STATES
ESTATE OF THOMAS STEINBECK, GAIL KNIGHT STEINBECK,
AND THE PALLADIN GROUP, INC.,
Petitioners,
v.
WAVERLY SCOTT KAFFAGA, as Executor of the Estate of
Elaine Anderson Steinbeck,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 1,332 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 23, 2020.

/s/ Matthew J. Dowd
Matthew J. Dowd
Counsel for Petitioners

